          ACQUISITION OF THE ARMORED MEDICAL
                  EVACUATION VEHICLE


Report No. D-2001-012                   November 22, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AMEV                  Armored Medical Evacuation Vehicle
BFVS                  Bradley Fighting Vehicle Systems
IOT&E                 Initial Operational Test and Evaluation
RDT&E                 Research, Development, Test, and Evaluation
                      Office of the Inspector General, DoD
Report No. D-2001-012                                          November 22, 2000
  (Project No. D2000AE-0208)

         Acquisition of the Armored Medical Evacuation Vehicle

                               Executive Summary

Introduction. The Armored Medical Evacuation Vehicle (AMEV), an Army
Acquisition Category III program, is a Bradley Fighting Vehicle variant and is intended
to replace the M113A2/A3 Armored Ambulance as the medical evacuation vehicle
platform in the Army’s heavy divisions. The AMEV is an armored, tracked vehicle
designed to carry four-litter and four ambulatory patients or any combination thereof.
The platform for the AMEV is an upgraded M2A0 Bradley Fighting Vehicle variant,
which has the turret removed, the roof squared off and raised 13 inches, a
600 horsepower engine, and additional armor. The Army Medical Research and
Materiel Command and the Program Executive Office, Ground Combat and Support
Systems, have overall management responsibility for the AMEV. The Army plans to
make a low-rate initial production decision in September 2001 for the AMEV and a
full-rate production decision in August 2003. The Army has a requirement to procure
675 vehicles at an estimated program cost of $580 million; however, the AMEV is
currently unfunded for procurement. The Army projects the life-cycle cost for the
AMEV through FY 2027 to be about $2.5 billion in FY 1999 dollars.

Objectives. The primary audit objective was to evaluate the overall management of the
AMEV. Because the AMEV was in the engineering and manufacturing development
phase, we evaluated whether management was cost effective in readying the system for
the production phase of the acquisition process. We also evaluated the management
control program as it related to the audit objectives.

Results. The Army did not have a viable acquisition strategy to acquire the AMEV at
the completion of the engineering and manufacturing development phase of the
acquisition process. As a result, the Army had obligated about $9.7 million in
research, development, test and evaluation funds for the program from its inception in
FY 1997 through FY 2000 and planned to obligate another $6.3 million to complete the
developmental effort in FY 2001 through FY 2003 for a program that the Army did not
intend to fund for production. Implementing the recommendation would allow the
Army to put the $6.3 million of remaining funds programmed for the AMEV to better
use. See the Finding section for a discussion of the audit results.

The management controls that we reviewed were effective in that no material
management control weakness was identified.

Summary of Recommendation. We recommend that the Assistant Secretary of the
Army (Financial Management and Comptroller) discontinue further research,
development, test and evaluation funding for the AMEV.

Management Comments. Because the AMEV is co-managed, we requested that the
Commander, Army Medical Research and Materiel Command, and the Program
Executive Officer, Ground Combat and Support Systems, comment on the draft report.
Consequently, we received comments from the Program Executive Officer, Ground
Combat and Support Systems, and the Acting Commander, Army Medical Materiel
Development Activity, who responded for the Commander, Army Medical Research
and Materiel Command. The Program Executive Officer stated that the draft report
provides an accurate assessment of the documentation that the Project Manager,
Bradley Fighting Vehicle Systems, provided during the audit. The Acting Commander
did not concur with the finding and did not specifically address the recommendation to
discontinue further funding for the AMEV; however, he stated that efforts to obtain
Army funding for the AMEV were ongoing. The Acting Commander also provided
comments and recommended changes to selected statements in the report. A discussion
of the management comments is in the Finding section of the report, and the complete
text is in the Management Comments section.

Audit Response. Because the Acting Commander, Army Medical Materiel
Development Activity, did not address the recommendation and was continuing
unrealistic efforts to obtain funding for the AMEV, we are redirecting the
recommendation to the Assistant Secretary of the Army (Financial Management and
Comptroller) to ensure that the Army spends funds on efforts that it is committed to
fully funding and procuring. Therefore, we request that the Assistant Secretary
comment on the recommendation by January 22, 2001.




                                           ii
Table of Contents

Executive Summary                                                    i

Introduction
     Background                                                      1
     Objectives                                                      2

Finding
     Continued Development Without Procurement Funds                 3

Appendixes
     A. Audit Process
          Scope and Methodology                                      8
          Management Control Program Review                          9
          Prior Coverage                                             9
     B. Definitions of Technical Terms                              10
     C. Audit Responses to Army Comments Concerning the Report      14
     D. Report Distribution                                         20
Management Comments
     Program Executive Office, Ground Combat and Support Systems,
        Comments                                                    23
     Army Medical Materiel Development Activity Comments            24
Armored Medical Evacuation Vehicle
Background
    The Armored Medical Evacuation Vehicle (AMEV), an Army Acquisition
    Category III program, is a Bradley Fighting Vehicle variant and is intended to
    replace the M113A2/A3 Armored Ambulance as the medical evacuation vehicle
    platform in the Army’s heavy divisions. The AMEV is an armored, tracked
    vehicle designed to carry four-litter and four ambulatory patients or any
    combination thereof. The platform for the AMEV is an M2A0 Bradley Fighting
    Vehicle variant with the turret removed, the roof squared off and raised
    13 inches, and upgraded to the M2A2 Bradley Fighting Vehicle variant by
    adding additional armor and by increasing the engine’s performance to
    600 horsepower. United Defense Limited Partnership is the prime contractor
    for the AMEV. Appendix B provides definitions of technical terms used in this
    report.

    The AMEV is designed to overcome M113A2/A3 shortfalls identified during
    Operation Desert Storm and will have the mobility, survivability, and
    maintainability equivalent to the force that it supports. M113A2/A3 shortfalls
    include inadequate casualty evacuation capability due to a lack of space for
    medical equipment; poor ride stabilization; no environmental control or nuclear,
    biological, chemical protection; and inadequate self-protection. Medical
    capability for the AMEV includes on-board oxygen and suction equipment and
    storage for essential medical items. The “United States Army Armored Systems
    Modernization Report,” February 1999, indicates that the Army intends to
    replace 675 M113A2/A3 vehicles with the AMEV.

    The Army Medical Research and Materiel Command and the Program
    Executive Office, Ground Combat and Support Systems, co-manage the AMEV
    with support from subordinate organizations: the Army Medical Materiel
    Development Activity and the Project Manager, Bradley Fighting Vehicle
    Systems (BFVS). The BFVS Project Manager is the lead materiel developer for
    the AMEV with overall management and integration responsibility. The Army
    Medical Materiel Development Activity is the materiel developer for the
    medical mission equipment set and also budgets and provides research,
    development, test and evaluation (RDT&E) funding to the BFVS Project Office.
    The BFVS Project Manager works with the Army Medical Materiel
    Development Activity to integrate the medical mission equipment into the
    AMEV.

    The Commander, Army Medical Research and Materiel Command, is the
    milestone decision authority for the AMEV, except for the low-rate initial
    production and the full-rate production decisions. The Program Executive
    Officer, Ground Combat and Support Systems, is the milestone decision
    authority for the low-rate initial production and the full-rate production decisions
    and is responsible for budgeting the procurement funding for the AMEV. The
    Army plans to make a low-rate initial production decision in September 2001
    and a full-rate production decision in August 2003. The Army projects the
    life-cycle cost for the AMEV through FY 2027 to be about $2.5 billion in
    FY 1999 dollars.


                                         1
Objectives
     The primary audit objective was to evaluate the overall management of the
     AMEV. Because the AMEV was in the engineering and manufacturing
     development phase, we evaluated whether management was cost effective in
     readying the system for the production phase of the acquisition process. We
     also evaluated the management control program as it related to the audit
     objectives. See Appendix A for a discussion of the audit scope and
     methodology, the review of the management control program, and prior
     coverage related to the audit objectives.




                                        2
                Continued Development Without
                Procurement Funds
                The Army did not have a viable acquisition strategy to acquire the
                AMEV at the completion of the engineering and manufacturing
                development phase of the acquisition process. This condition occurred
                because the milestone decision authority allowed the AMEV to enter
                engineering and manufacturing development without full funding for the
                production phase of the acquisition process. As a result, the Army had
                obligated about $9.7 million in research, development, test and
                evaluation funds for the program from its inception in FY 1997 through
                FY 2000 and planned to obligate another $6.3 million to complete the
                developmental effort in FY 2001 through FY 2003 for a program that the
                Army did not intend to fund for production.

Full-Funding and Acquisition Strategy Policy
        Full-Funding Policy. DoD Regulation 5000.2-R, “Mandatory Procedures for
        Major Defense Acquisition Programs (MDAPs) and Major Automated
        Information System (MAIS) Acquisition Programs,” Change 4, May 11, 1999;1
        Army Regulation 70 -1, “Research, Development, and Acquisition, Army
        Acquisition Policy,” January 15, 1998; and Army Pamphlet 70-3, “Research,
        Development, and Acquisition -- Army Acquisition Procedures,” July 15, 1999,
        define requirements for full funding of acquisition programs at program
        initiation.

                DoD Regulation. DoD Regulation 5000.2-R requires the milestone
        decision authority to assess affordability at each milestone decision point
        beginning with program initiation. Further, the Regulation requires that the
        milestone decision authority not approve an acquisition program to proceed
        beyond program initiation unless sufficient resources, including manpower, are
        programmed in the most recently approved Future Years Defense Program, or
        will be programmed in the next Program Objectives Memorandum, Budget
        Estimate Submission, or President’s Budget.

               Army Regulation. Army Regulation 70-1 requires the Army to follow
        guidance and procedures contained in DoD Regulation 5000.2-R for Acquisition
        Categories II through IV programs.

               Army Pamphlet. Army Pamphlet 70-3 supplements DoD
        Regulation 5000.2-R and requires that full funding, which is the total cost for
        developing, procuring, and sustaining an acquisition program, be shown in the
        most recent Future Years Defense Program for all programs, regardless of
        Acquisition Category.


1
 DoD initially issued DoD Regulation 5000.2-R on March 15, 1996, which included the full-funding
guidance and acquisition strategy guidance, discussed later.

                                                 3
        Acquisition Strategy Policy. DoD Regulation 5000.2-R requires the program
        manager to develop and document an acquisition strategy that will serve as the
        roadmap for program execution from program initiation through post-production
        support and includes the critical events that govern the management of the
        program. The primary goal of the acquisition strategy is to minimize the time
        and cost of satisfying an identified, validated need consistent with common
        sense and sound business practices.

Engineering and Manufacturing Development Phase
  Continues Without Procurement Funds
        The Army did not have a viable acquisition strategy to acquire the AMEV at the
        completion of the engineering and manufacturing development phase of the
        acquisition process. This condition occurred because the milestone decision
        authority allowed the AMEV to enter engineering and manufacturing
        development without full funding for the production phase of the acquisition
        process.

        Acquisition Strategy. The “Acquisition Strategy Report for the Armored
        Medical Evacuation Vehicle (AMEV),” May 11, 1999, provides a detailed plan
        for the acquisition of the AMEV. The Acquisition Strategy covers the need, the
        delivery requirements, the cost estimate, the test plan, the acquisition approach,
        the logistic considerations, and the contracting for the program. The acquisition
        strategy breaks the AMEV into four phases: modifying the prototype vehicle,
        designing and building the engineering and manufacturing development vehicle,
        producing 52 low-rate initial production vehicles, and manufacturing 623 full-
        rate production vehicles. On May 11, 1999, officials of the Army Medical
        Research and Materiel Command and the Program Executive Office, Ground
        Combat and Support Systems, approved the acquisition strategy, which stated
        that low-rate initial production and full-rate production phases were pending
        funding support.

        Milestone Decision. The Commander, Army Medical Research and Materiel
        Command, was the milestone decision authority for the combined AMEV
        program definition and risk reduction, and engineering and manufacturing
        development decision review. On May 11, 1999, the Commander chaired the
        decision review that the Deputy, Program Executive Officer, Ground Combat
        and Support Systems, and representatives from the Army Medical Materiel
        Development Activity, Army Medical Department Center and School (the user
        representative), and the BFVS Project Office attended. The representatives
        briefed the milestone decision authority that the AMEV had no procurement
        funding. Although the milestone decision authority expressed reservations about
        the lack of procurement funding for the AMEV, he approved the AMEV entry
        into the engineering and manufacturing development phase and directed the
        AMEV Integrated Product Team2 to brief him by July 1, 1999, on a strategy to
        obtain procurement funds in the FYs 2002 through 2007 Program Objectives
        Memorandum cycle.
2
The AMEV Integrated Product Team included representatives from the Army Medical Materiel
Development Activity, Army Medical Department Center and School, and the BFVS Project Office.

                                                4
    Full-Funding Strategy. On August 2, 1999, the AMEV Integrated Product
    Team briefed the milestone decision authority on the funding strategy. At the
    briefing, the milestone decision authority authorized the Integrated Product
    Team to continue with the funding strategy to identify potential sources of
    procurement funds for the AMEV. These potential sources included:

           •   reprogramming funds currently programmed for upgrading the
               Army’s M113A2 Armored Personnel Carrier to the M113A3
               configuration,

           •   reprogramming Army Medical Department procurement funds for
               the AMEV, and

           •   using the proceeds from the sale of the turrets removed from the
               Bradley M2A0 vehicles in the remanufacture of the M2A0 vehicles
               to supplement funding for the AMEV if the program received
               procurement funding.

    As part of the funding strategy, the Program Executive Office, Ground Combat
    and Support Systems, was to submit the AMEV as an unfunded requirement in
    the FYs 2002 through 2007 Program Objectives Memorandum and to have the
    Integrated Product Team solicit senior military and civilian leadership support
    for the AMEV within the Office of the Secretary of Defense and the Military
    Departments to obtain funding for the AMEV. Previous Program Objectives
    Memorandum cycles did not include requests for AMEV procurement funds
    because the Army Medical Materiel Development Activity, a subordinate
    organization of the Army Medical Research and Materiel Command and the
    Program Executive Office, Ground Combat and Support Systems, attempted to
    obtain procurement funding for the Army Armored Medical Treatment Vehicle
    and did not want the AMEV request to compete with the Armored Medical
    Treatment Vehicle request in the same Program Objectives Memorandum
    cycles.

    In September 1999, the Program Executive Office, Ground Combat and Support
    Systems, submitted an unfunded requirement for procurement funding of
    $580 million for 675 AMEVs to the Army’s Deputy Chief of Staff for
    Operations and Plans. In March 2000, the Office of the Deputy Chief of Staff
    for Operations and Plans recorded the unfunded requirement in the FYs 2002
    through 2007 Program Objectives Memorandum, assigned the program the
    lowest priority in its funding prioritization system, and indicated no intention of
    funding the AMEV. Consequently, the AMEV Integrated Product Team’s
    efforts to obtain funding for the AMEV were unsuccessful.

Effect of Continuing the Armored Medical Evacuation Vehicle
  Program Without Procurement Funds
    Without a viable acquisition strategy for the AMEV, the Army had obligated
    about $9.7 million in research, development, test and evaluation funds for the
    program from its inception in FY 1997 through FY 2000 and planned to


                                         5
        obligate another $6.3 million to complete the development effort in FYs 2001
        through 2003 for a program that the Army does not intend to fund for
        production.

        Efforts Planned to Complete Development. The Army Medical Materiel
        Development Activity and the BFVS Project Manager plan to spend the
        $6.3 million to correct design deficiencies in the engineering and manufacturing
        development prototype and to complete a number of remaining tasks.

                Design Deficiencies. In May 2000, the prime contractor delivered the
        engineering and manufacturing development prototype to the Army for the
        limited user test, planned for June 2000. However, the Army Medical
        Department Board conducted an operational test readiness review and
        determined that the vehicle was not ready for the limited user test. As a result,
        the Army Medical Department Board conducted a Force Development
        Experiment in June 2000 to determine what system design changes would be
        needed to meet operational needs. The results of the experiment identified
        problems in three areas: stowage, air conditioner reliability, and top-litter
        patient loading. The Army Medical Materiel Development Activity stated that
        the Army has identified solutions for the deficiencies noted during the
        experiment and has begun to incorporate those solutions into the AMEV
        technical data package. BFVS Project Office officials stated that adequate
        RDT&E funds exist for the Army and the contractor to correct the deficiencies.

                 Remaining Tasks. The Army Medical Materiel Development Activity
        and the BFVS Project Office plan to complete a logistics demonstration,
        operator and maintenance manuals, and a series of tests including a limited user
        test, a production qualification test, a production verification test, and an initial
        operational test and evaluation (IOT&E) if the previous test results do not
        provide sufficient favorable data to demonstrate that the AMEV meets medical
        operational requirements. The Army Medical Materiel Development Activity
        plans to fund these tests with the remaining RDT&E funds; however, it does not
        have enough funds to perform the IOT&E. On August 2, 1999, the AMEV
        Integrated Product Team briefed the milestone decision authority that an
        IOT&E, if required, would cost about $1 million. However, according to the
        Army Medical Materiel Development Activity, the Army did not validate this
        estimate. Further, the Army plans to conduct the above series of tests from
        FY 2001 through early FY 2003; the IOT&E, if necessary, from March through
        May 2003; and a full-rate production decision review in August 2003.

        Funds Put to Better Use. By discontinuing the development of the AMEV, the
        Army could put the remaining $6.3 million of RDT&E funds to better use.3
        Without an Army commitment to fully fund the AMEV for procurement, the
        Army will continue to use the M113A2/A3 armored ambulance in the Army
        heavy divisions. Accordingly, the Army is unnecessarily planning to obligate
        another $6.3 million in RDT&E funds for a system that will not enter

3
 The Army Medical Materiel Development Activity planned a total of $6.311 million of research,
development, test, and evaluation funding for the AMEV Program in FYs 2001 through 2003. The
planned funding includes $1.944 million in FY 2001, $2.716 million in FY 2002, and $1.651 million in
FY 2003.

                                                  6
    production. Under these circumstances, the prudent course of action would
    dictate that Army management discontinue the AMEV development effort and
    put unobligated funds to better use.

Management Comments on the Finding and Audit Responses
    Summaries of management comments on the finding and our responses are in
    Appendix C.

Recommendation, Management Comments, and Audit
  Response
    Redirected Recommendation. In the draft report, we directed the
    recommendation to the Commander, Army Medical Research and Materiel
    Command. Because the Acting Commander, Army Medical Materiel
    Development Activity, who responded for the Commander, Army Medical
    Research and Materiel Command, did not address the recommendation and was
    continuing unrealistic efforts to obtain funding for the AMEV, we are
    redirecting the recommendation to the Assistant Secretary of the Army
    (Financial Management and Comptroller) to ensure that the Army spends funds
    on efforts that it has committed to fully fund and procure.

    We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller) discontinue further research, development,
    test and evaluation funding for the AMEV.

    Management Comments. The Acting Commander, Army Medical Materiel
    Development Activity, did not specifically address the recommendation.
    However, in his overall comments to the report, he stated that efforts were
    ongoing to obtain Army funding for the AMEV. He also stated that the Army
    Medical Materiel Development Activity was reconsidering AMEV affordability
    in response to the changing scope and mission of projected future operations and
    was conducting a cost analysis of current and future AMEV affordability.

    Audit Response. The Army comments are not responsive. Unless the Army
    makes the AMEV a funding priority and fully funds the AMEV for procurement
    in the Future Year Defense Program, it should discontinue further research,
    development, test and evaluation funding for the AMEV. Therefore, we request
    that the Assistant Secretary of the Army (Financial Management and
    Comptroller) comment on this recommendation to ensure that the Army spends
    its limited funds on programs that meet its funding priorities for full funding and
    procurement.




                                         7
Appendix A. Audit Process

Scope and Methodology
    We conducted the audit from June through September 2000 and reviewed
    documentation dated from December 1995 to August 2000. We interviewed and
    obtained documentation from the staffs of the Army Training and Doctrine
    Command, the Assistant Secretary of the Army (Acquisition, Logistics and
    Technology), the Army Deputy Chief of Staff for Operations and Plans, the
    Army Medical Center and School, the Army Test and Evaluation Command, the
    Army Medical Materiel Development Activity, the Bradley Fighting Vehicle
    Systems Project Office, and the M113 Family of Vehicles Product Office.
    Because the AMEV Program was in the late phase of engineering and
    manufacturing development, the audit concentrated on whether management was
    cost-effectively readying the system for the production phase of the acquisition
    process. Consequently, we focused our review on the areas of requirements
    generation, acquisition planning, program assessments and decision reviews,
    and test and evaluation.

    Auditing Standards. We conducted this program audit in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD, and accordingly included such
    tests of management controls as we deemed necessary.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate level goal and subordinate
    performance goal.

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.4: Meet combat forces’
               needs smarter and faster, with products and services that work better
               and cost less, by improving the efficiency of DoD’s acquisition
               processes. (01-DoD-2.4)


                                        8
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Weapons Systems Acquisition high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Regulation 5000.2-R, acquisition managers are to use program cost,
    schedule, and performance parameters as control objectives to implement the
    requirements of DoD Directive 5010.38. Accordingly, we limited our review to
    management controls directly related to requirements generation, acquisition
    planning, program assessments and decision reviews, and test and evaluation.
    Because we did not identify a material weakness, we did not assess
    management’s self-evaluation of those controls.

    Adequacy of Management Controls. Management controls were adequate in
    that we did not identify any material management control weakness.

Prior Coverage
    During the last 5 years, no reports have been issued related to the Armored
    Medical Evacuation Vehicle.




                                       9
Appendix B. Definitions of Technical Terms
   Acquisition Category III. Acquisition Category (ACAT) III programs are
   defined as those acquisition programs that do not meet the research,
   development, test and evaluation and procurement dollar thresholds for an
   ACAT I, major Defense acquisition program; an ACAT IA, major automated
   information system; or an ACAT II, major system. The milestone decision
   authority is designated by the Component Acquisition Executive and shall be the
   lowest appropriate level.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints imposed. It is the framework for planning, directing,
   contracting for, and managing a program. It provides a master schedule for
   research, development, test, production, fielding, modification, postproduction
   management, and other activities essential for program success. The acquisition
   strategy is the basis for formulating functional plans and strategies.

   Budget Estimate Submission. The budget estimate submission is the DoD
   Component’s budget submissions to the Office of the Secretary of Defense
   showing budget requirements for inclusion in the DoD budget.

   Combat Developer. The combat developer is a command or agency that
   formulates doctrine, concepts, organization, materiel requirements, and
   objectives. The term can be used generically to represent the user community in
   the acquisition process.

   Engineering and Manufacturing Development. The objective of the
   engineering and manufacturing development phase in the acquisition process is
   to translate the most promising design approach into a stable, interoperable,
   producible, and cost-effective design; validate the manufacturing process; and
   demonstrate system capabilities through testing. The intended output of the
   phase is, as a minimum, a preproduction system which closely approximates the
   final product, the documentation necessary to enter the production phase, and
   the test results that demonstrate that the production product will meet stated
   requirements.

   Force Development Experiment. A force development experiment determines
   what system design changes would be needed to meet operational system needs.

   Full Funding. Full funding is a DoD policy that applies to procurement and
   military construction appropriation accounts, and is defined in the DoD
   Financial Management Regulation. Full funding incorporates two related, but
   different policies. The first states that a DoD Component must identify and set
   aside sufficient funds in its Future Years Defense Program to cover the
   Component’s best estimate of the annual cost for the program in each fiscal year
   of the Future Years Defense Program and must keep the estimate current. The
   second states that the DoD Component must provide sufficient funding in the
   annual appropriation of funds for the total estimated costs to be incurred in the
   delivery of a given quantity of a usable end item.

                                      10
Full-Rate Production. Full-rate production is contracting for economic
production quantities following stabilization of the system design and validation
of the production process.

Future Years Defense Program. The Future Years Defense Program is the
official DoD document that summarizes forces and resources associated with
programs approved by the Secretary of Defense. Its three parts are the
organizations affected, appropriations accounts, and the 11 major force
programs.

Initial Operational Test and Evaluation. Initial operational test and evaluation
is testing conducted on production, or production representative articles, to
determine whether systems are operationally effective and suitable for intended
use by representative users to support the decision to proceed beyond low-rate
initial production.

Integrated Product Team. An integrated product team is a team composed of
representatives from all appropriate functional disciplines working together to
build successful programs, identify and resolve issues, and make sound and
timely recommendations to facilitate decision making.

Life-Cycle Cost. The life-cycle cost is the total cost to the government of
acquisition and ownership of a system over its useful life. It includes the cost of
development, acquisition, operations, and support (to include manpower), and,
where applicable, disposal.

Limited User Test. A limited user test is any type of research, development,
test and evaluation funded operational test conducted between the engineering
and manufacturing design, and full-rate production phases other than the initial
operational test. The limited user test normally addresses a limited number of
operational issues.

Logistics Demonstration. A logistics demonstration is a demonstration that
evaluates the achievement of maintainability goals; the adequacy and
sustainability of tool, test equipment, selected test programs sets, built-in test
equipment, associated support items of equipment, technical publications,
maintenance instructions, trouble-shooting procedures, and personnel skill
requirements; the selection and allocation of spare parts, tools, test equipment,
and tasks to appropriate maintenance levels; and the adequacy of maintenance
time standards.

Low-Rate Initial Production. Low-rate initial production is the minimum
number of systems to provide production representative articles for operational
test and evaluation, to establish an initial production base, and to permit an
orderly increase in the production rate sufficient to lead to full-rate production
upon successful completion of operational testing.

Materiel Developer. A materiel developer is a command or agency responsible
for research and development and production validation of an item.




                                     11
Milestone Decision Authority. The milestone decision authority is the
individual designated in accordance with criteria established by the Under
Secretary of Defense for Acquisition, Technology, and Logistics to approve
entry of a program into the next phase.

Operational Test Readiness Review. An operational test readiness review is a
review to identify problems that may impact the conduct of an operational test
and evaluation. Operational test readiness reviews are conducted to determine
changes required in planning, resourcing, or testing necessary to proceed with
the operational test and evaluation. Participants include the operational tester,
evaluator, materiel developer, user representative, logisticians, Army staff, and
others, as necessary.

Planning, Programming, and Budgeting System. The Planning,
Programming, and Budgeting System is a formal, systematic structure for
making decisions on policy, strategy, and the development of forces and
capabilities to accomplish anticipated missions and a major decisionmaking
support system for Defense acquisition. The System is a cyclic process
containing three distinct, but interrelated phases: planning, which produces
Defense Planning Guidance; programming, which produces approved Program
Objectives Memorandum for the Military Departments and Defense Agencies;
and budgeting, which produces the DoD portion of the President’s national
budget.

President’s Budget. The President’s budget is the Federal Government budget
for a particular fiscal year transmitted on the first Monday in February to the
Congress by the President in accordance with the Budget Enforcement Act of
1992. It includes all agencies and activities of the executive, legislative, and
judicial branches.

Production Qualification Test. A production qualification test is a technical
test completed before the full-rate production decision to ensure the
effectiveness of the manufacturing process, equipment, and procedures. This
testing also serves the purpose of providing data for the independent evaluation
required for materiel release so that the evaluator can address the adequacy of
the materiel with respect to the stated requirements.

Production Verification Test. A production verification test is a system-level
developmental test conducted after the full-rate production decision to verify that
the production item meets critical technical parameters and contract
specifications, to determine the adequacy and timeliness of any corrective
actions indicated by previous test, and to validate the manufacturer’s facilities
and procedures.

Program Definition and Risk Reduction. The program definition and risk
reduction phase of the acquisition process consists of steps necessary to verify
preliminary design and engineering, build prototypes, accomplish necessary
planning, and fully analyze trade-off proposals. The objective is to validate the
choice of alternatives and to provide the basis for determining whether to
proceed into engineering and manufacturing development.



                                    12
Program Objectives Memorandum. The Program Objectives Memorandum is
an annual memorandum submitted to the Secretary of Defense by the DoD
component heads that recommends the total resource requirements and programs
within the parameters of the Secretary of Defense’s fiscal guidance. It is the
principal programming document that details how a DoD component proposes to
respond to assignments in the defense planning guidance and satisfy its assigned
functions in the Future Years Defense Program. The Program Objectives
Memorandum shows programmed needs for 5 or 6 years hence, and includes
manpower, force levels, procurement, facilities, and research and development.

Research, Development, Test and Evaluation. Research, development, test
and evaluation are activities for the development of a new system that include
basic and applied research, advanced technology development, demonstration
and validation, engineering development, developmental and operational testing
and the evaluation of test results.

Technical Data Package. A technical data package is a technical description of
an item adequate for supporting and acquisition strategy, production,
engineering, and logistics support. The description defines the required design
configuration and procedures to ensure adequacy of item performance. It
consists of all applicable technical data such as drawings, associated lists,
specifications, standards, performance requirements, quality assurance
provisions, and packaging details.




                                   13
Appendix C. Audit Responses to Army
            Comments Concerning the Report
   Our detailed responses to the comments from the Acting Commander, Army
   Medical Materiel Development Activity, responding for the Commander, Army
   Medical Research and Materiel Command, on statements in the finding of the
   draft report follows. The complete text of those comments is in the
   Management Comments section of this report.

   Management Comments. The Acting Commander, Army Medical Materiel
   Development Activity, provided comments that specifically addressed the audit
   objectives; the acquisition strategy and the milestone decision; the obligation of
   research, development, test and evaluation (RDT&E) funds; the term “funds put
   to better use;” the use of the phrase “Development Activity;” the low-rate initial
   production decision; the design deficiencies; the cost estimate for the initial
   operational test and evaluation; the approval for the AMEV to enter into the
   engineering and manufacturing development phase without procurement
   funding; and the reconsideration of AMEV affordability. The following
   discusses those specific comments and the audit response.

           Audit Objectives. The Acting Commander stated that the primary audit
   objective was to evaluate the overall management of the AMEV by determining
   whether management was cost effective in readying the system for the
   production phase of the acquisition process. Further, he stated that, because the
   draft report did not define the term “cost effective” and did not compare AMEV
   expenditures with other similar programs, he can only assume that the report
   explains the term “cost effective” in Appendix A, Scope and Methodology. He
   stated that the Scope and Methodology Section of the draft report identifies eight
   organizations contacted from June through September 2000 with focus on the
   areas of requirements generation, acquisition planning, program assessments
   and decision reviews, and test and evaluation. Consequently, he was curious as
   to how the audit addressed the stated objective. He was unable to locate any
   findings regarding the areas of requirements generation, program assessments,
   or test and evaluation. Therefore, he concluded that, because the report did not
   address any deficiencies in these areas, the Army managed those areas cost
   effectively and should be noted in the report.

           Audit Response. Even though we do not define the term “cost
   effective” in the report, the term means that tangible benefits are being
   produced by money spent. Because the Army has no intention of providing
   procurement funding for the AMEV, the Army Medical Materiel Development
   Activity is unnecessarily using funds on developing a system that the Army is
   not going to procure. Therefore, the Army is not cost effectively managing the
   AMEV because it will not procure a tangible item from the RDT&E funds
   spent. Concerning the areas of requirements generation, program assessments
   and decision reviews, and test and evaluation, we reviewed those areas to
   determine whether Army management was cost effectively readying the system
   for production. Those were the functional areas that we reviewed to accomplish
   the audit objective. To state whether those areas have deficiencies is not


                                       14
germane in determining whether management is cost effectively readying the
AMEV for the production phase of the acquisition process because the Army
has no intention of providing procurement funding for the AMEV.

        Acquisition Strategy and Milestone Decision. The Acting Commander
stated that he took exception with the finding and stated that the fact that the
AMEV is unfunded for procurement has no bearing on the validity of the
acquisition strategy or the appropriateness of the decision by the milestone
decision authority to allow the AMEV to enter into the engineering and
manufacturing development phase. He believed that the following statements in
the draft report were misleading:

       •   the Army does not have a viable acquisition strategy to acquire the
           AMEV at the completion of the engineering and manufacturing
           development phase, and

       •   the Army does not intend to fund for production of the AMEV.

                Viable Acquisition Strategy. The Acting Commander stated that
the Project Office, Bradley Fighting Vehicle Systems, and the Army Medical
Materiel Development Activity jointly developed the AMEV acquisition strategy
and briefed the milestone decision authority and the Program Executive Office,
Ground Combat and Support Systems, during the combined AMEV program
definition and risk reduction, and engineering and manufacturing development
decision review. Further, he stated that, as noted in the draft report, the
milestone decision authority expressed reservations about the lack of
procurement funding, but accepted the risk and approved the acquisition strategy
as the roadmap to acquire production funding. He stated the efforts outlined in
the acquisition strategy and the August 2, 1999, briefing to obtain procurement
funding for the AMEV continue. In addition, he stated that the conclusion in
the draft report that the Army is unwilling to fund the AMEV is premature and
that the acquisition strategy is still valid and that efforts to obtain Army funding
continues.

                Audit Response. The acquisition strategy is not the roadmap to
acquire program funding. As discussed in DoD Regulation 5000.2-R, the
acquisition strategy is the roadmap for program execution from program
initiation through post-production support and includes the critical events that
govern the management of the program. The primary goal of the acquisition
strategy is to minimize the time and cost of satisfying an identified, validated
need consistent with common sense and sound business practices. The process
for acquiring program funding is the planning, programming, and budget
system. Under that system, the Project Office, Bradley Fighting Vehicle
Systems, and the Army Medical Materiel Development Activity should have
requested procurement funding in the Army’s Program Objectives Memorandum
before the program definition and risk reduction and engineering and
manufacturing development decision review milestone decision on May 11,
1999. However, as noted in the report, the Project Office and the Army
Medical Materiel Development Activity, did not want to request procurement
funding for the AMEV because they believed that such a request would compete
with their request for procurement funding for the Armored Medical Treatment
Vehicle. Subsequently, in September 1999, the Program Executive Officer,

                                    15
Ground Combat and Support Systems, submitted an unfunded requirement for
procurement funding of the AMEV in the FYs 2002 through 2007 Program
Objectives Memorandum to the Army’s Deputy Chief of Staff for Operations
and Plans, who indicated no intention of funding the AMEV.

                Milestone Decision. The Acting Commander stated that, as cited
in the draft report, DoD Regulation 5000.2-R requires that the milestone
decision authority not approve an acquisition program to proceed beyond
program initiation unless sufficient resources, including manpower, are
programmed in the most recently approved Future Years Defense Program, or
will be programmed in the next Program Objectives Memorandum, Budget
Estimate Submission, or President’s Budget. Further, he stated that the
combined AMEV program definition and risk reduction, and engineering and
manufacturing development decision review occurred on May 11, 1999, and that
the Army submitted an unfunded requirement for programming in the next
Program Objectives Memorandum cycle, which began in September 1999.
Therefore, he believed that the milestone decision authority acted in accordance
with DoD Regulation 5000.2-R when he approved entry of the AMEV into the
engineering and manufacturing development phase of the acquisition process.
Consequently, he requested that we remove all language implying that the
milestone decision authority “was negligent in approving this decision.”

               Audit Response. The milestone decision authority did not act in
accordance with DoD Regulation 5000.2-R when he approved entry of the
AMEV into the engineering and manufacturing development phase of the
acquisition process. At the time of the milestone decision review in May 1999,
the Army had neither provided procurement funding for the AMEV in the most
recently approved Future Years Defense Program nor made a commitment to
program procurement funding for the AMEV in the next Program Objectives
Memorandum. Further, the Army could not have made a commitment to
program procurement funding for the AMEV because the Program Executive
Officer, Ground Combat and Support Systems, had not submitted a request for
procurement funding for the AMEV until September 1999 for the FYs 2002
through 2007 Program Objectives Memorandum.

        Obligation of Research, Development, Test and Evaluation Funds.
The Acting Commander stated that the Army has obligated $9.3 million in
RDT&E funds as of September 30, 2000, instead of the $9.7 million stated in
the draft report. He also stated that the draft report implies that the Army
obligated these funds during the engineering and manufacturing development
phase and, therefore, inappropriately managed the funds. Further, he stated that
the Army obligated about $4.9 million of the $9.3 million during the program
definition and risk reduction phase and, therefore, the Army did not mismanage
the funds.

        Audit Response. Based on documents that the Army Medical Materiel
Development Activity provided during the audit, the $9.7 million of obligated
RDT&E funds discussed in the report represent the amount of RDT&E funds
that the Army obligated from inception of the AMEV in FY 1997 through
FY 2000. Consequently, we revised the report to state that the Army had
obligated about $9.7 million in RDT&E funds for the program from its
inception in FY 1997 through FY 2000. Concerning the comment about

                                   16
mismanagement of funds, the Army should have not approved entering the
engineering and manufacturing phase of the acquisition process without having
AMEV procurement funds programmed in the most recently approved Future
Years Defense Program, or a commitment that those funds would be
programmed in the next Program Objectives Memorandum, Budget Estimate
Submission, or President’s Budget.

        Term “Funds Put to Better Use.” The Acting Commander stated that
the term “funds put to better use,” used throughout the report, was accusatory
and offensive and presumed that the Army did not properly manage AMEV
funding and did not have a valid requirement for the AMEV. Further, he stated
that the Army Medical Department, Center and School, the combat developer,
highly ranked the requirement for the AMEV. He would like the report to be
revised to state that “In the opinion of the DoDIG, these funds could be
reprogrammed for other products.”

        Audit Response. The report does imply that the Army did not properly
manage AMEV funding because it approved entering the engineering and
manufacturing phase of the acquisition process without having a commitment for
AMEV procurement funds and continued to obligate RDT&E funds without
receiving procurement funds. However, the report did not state or imply that
the Army Medical Department, Center and School, requirement for the AMEV
was not valid. The report stated that the Army has an unfunded requirement for
AMEV procurement funds; however, it has no intention of providing
procurement funds for the AMEV because it has higher priority programs to
fund. Concerning the reprogramming of funds, the Army’s only prudent course
of action would be to discontinue the AMEV development and reprogram any
remaining RDT&E funds because the Army has not shown any intent to provide
procurement funding for the AMEV.

        Use of Phrase “Development Activity.” The Acting Commander stated
that the draft report referred to the Army Medical Materiel Development
Activity as the “Development Activity.” Instead, he would like the report to
use the organization’s official acronym, “USAMMDA.”

       Audit Response. We revised the report to state the Army Medical
Materiel Development Activity in place of the “Development Activity.”

         Low-Rate Initial Production Decision. The Acting Commander stated
that the Commanding General, Army Medical Research and Materiel
Command, is the milestone decision authority for the AMEV up to the low-rate
initial production decision and that the Program Executive Officer, Ground
Combat and Support Systems, becomes the milestone decision authority at the
low-rate initial production decision and retains this responsibility for the
remainder of the program.

        Audit Response. We revised the report to state that the Commander,
Army Medical Research and Materiel Command, is the milestone decision
authority for the AMEV, except for the low-rate initial production and the
full-rate production decisions. The Program Executive Officer, Ground Combat



                                  17
and Support Systems, is the milestone decision authority for the low-rate initial
production and the full-rate production decisions and is responsible for
budgeting the procurement funding for the AMEV.

        Design Deficiencies. The Acting Commander stated that the design
deficiencies paragraph of the draft report should have stated that the Army
Medical Department Board, not an AMEV integrated product team conducted
the operational test readiness review and the limited user test/force development
experiment in June 2000. Further, he stated that the Army has identified
solutions for the deficiencies noted during the experiment and has begun to
incorporate those solutions into the AMEV technical data package. He also
stated that the Army Medical Department, Center and School, which is the
combat developer, developed and approved a stowage plan during the
September 28, 2000, Stowage Demonstration, where the Army determined that
the stowage issues identified during the experiment were overstated.
Additionally, he stated that, for the issue concerning the loading of top-litter
patients, the Army Center for Health Promotion and Preventive Medicine has
approved a solution, which the Army Research Laboratory, Human Resources
Engineering Directorate, has begun to implement. Finally, he stated that the
Army has corrected the air conditioner design problems and will complete the
unit by December 2000.

       Audit Response. We revised the report to state that:

               •   the Army Medical Department Board and not an AMEV
                   integrated product team conducted the operational test
                   readiness review and the force development experiment, and

               •   the Army Medical Materiel Development Activity stated that
                   the Army has identified solutions for the deficiencies noted
                   during the experiment and has begun to incorporate those
                   solutions into the AMEV technical data package.

       Cost Estimate for the Initial Operational Test and Evaluation. The
Acting Commander stated that the cost estimate for the initial operation test and
evaluation that the AMEV Integrated Product Team provided to the milestone
decision authority on August 2, 1999, was approximately $1 million, which is
an unvalidated estimate. He requested that his comments about the unvalidated
estimate be addressed in the body of the report and not as a footnote.

         Audit Response. We revised the report to state that, on August 2, 1999,
the AMEV Integrated Product Team briefed the milestone decision authority
that an IOT&E, if required, would cost about $1 million. However, according
to the Army Medical Materiel Development Activity, the Army did not validate
this estimate.

        Approval for the AMEV to Enter into the Engineering and
Manufacturing Development Phase Without Procurement Funding. The
Acting Commander concurs with the finding that the Army has not funded the
AMEV for production; however, he nonconcurs with the implication that the
milestone decision authority was negligent in his decision to allow the program
to enter the engineering and manufacturing development phase. He stated that,

                                    18
because the Army Medical Command does not have procurement funds to
purchase vehicles for its mission, it must rely on the Army to provide the
platforms with which it can perform its mission. Further, he stated that the
mission needs statement and operational requirements document, which the
Army Training and Doctrine Command approved, state that the current ground
evacuation platform, the M113A2/A3 is unable to maintain pace with the
supported force and is unable to provide the required medical support when and
where the it is most desperately needed. He also stated that the AMEV provides
a cost-effective solution to the M113A2/A3 by recapitalizing existing Army
assets and by reducing logistical burdens.

        Audit Response. The milestone decision authority should not have
allowed the AMEV to enter the engineering and manufacturing phase of the
acquisition process without having a commitment for AMEV procurement
funds, as previously discussed. Even though the mission needs statement and
operational requirements document indicate a need for the AMEV, the Army
has no intention of providing procurement funds for the AMEV because it has
higher priority programs to fund.

        Reconsidering AMEV Affordability. The Acting Commander stated
that the Army is reconsidering whether the AMEV is affordable in response to
the changing scope and mission of projected future operations by conducting a
cost analysis of current and future program affordability.

       Audit Response. The point of contact for the Acting Commander’s
comments informed us that the Army Medical Materiel Development Activity
was conducting the cost analysis of current and future AMEV affordability.
Such efforts are unproductive given that Army management has no intention of
providing procurement funds for the AMEV because of higher priority
programs to fund.




                                  19
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Comptroller (Program/Budget)

Department of the Army
Commander, Army Materiel Command
  Commander, Tank-automotive and Armaments Command
      Deputy for Systems Acquisition
         Project Manager, Combat Mobility Systems
           Product Manager, M113 Family of Vehicles
Commander, Army Training and Doctrine Command
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Program Executive Officer, Ground Combat and Support Systems
      Project Manager, Bradley Fighting Vehicle Systems
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, Army Medical Command
  Commander, Army Medical Center and School
  Commander, Army Medical Research and Materiel Command
      Director, Army Medical Materiel Development Activity
Deputy Chief of Staff for Operations and Plans
Auditor General, Department of the Army
Commander, Army Test and Evaluation Command

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget


                                          20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       21
Program Executive Office, Ground Combat and
 Support Systems, Comments




                     23
Army Medical Materiel Development Activity
 Comments




                      24
25
26
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

          Thomas F. Gimble
          John E. Meling
          Jack D. Snider
          John J. Dzik
          Sean A. Davis
          Krista S. Gordon
